——
I

OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1334
BRADLEY BOARDMAN,
a Washington Individual Provider, et al.,
Petitioners,
v.

JAY R. INSLEER,
Governor of the State of Washington, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h). I certify that the BRIEF OF THE BRONX
HOUSEHOLD OF FAITH AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33. 1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4270 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 23rd day of April, 2021.
}am duly authorized under the laws of the State of Nebraska to administer oaths,

A GENERAL MOTARY-State of Nebraska z 2 Z J,
RENEE J. GOSS 9 . ¢ decadron A
Notary Public

fly Comm, Exp. September 6, 2023

 

 

Affiant 40902
